No.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

30MIAH WASHINGTON,
PETITIONER,
US .
WILLIS CHAPMAN, Warden,
RESPONDENT.

PROOF OF SERVICE
, I, Oomiah Washington, do swear or declare that on this date,
(#1
.2020 , as
required by Supreme Court Rule 29 I have served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid to:
DANA NESSEL
MICHIGAN ATTORNEY GENERAL
PO Box 3021 7
Lansing, MI 4B909
I declare under penalty of perjury that the foregoing is true.

G / Q-Ol2~e1
Date

28 USC 1746

